      Department of Homeland Security




   Kentucky’s Management of State Homeland Security 

   Program and Urban Areas Security Initiative Grants 

             Awarded Fiscal Years 2008-2010 





OIG-13-41                                    February 2013

                    OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                             Washington, DC 20528 / www.oig.dhs.gov



                                     FEB 27 2013

MEMORANDUM FOR:              David J. Kaufman
                             Acting, Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     Kentucky’s Management of State Homeland Security
                             Program and Urban Areas Security Initiative Grants
                             Awarded Fiscal Years 2008-2010

Attached for your action is our final report, Kentucky’s Management of State Homeland
Security Program and Urban Areas Security Initiative Grants Awarded Fiscal Years 2008-
2010. We incorporated formal comments from the Federal Emergency Management
Agency’s Office of Policy, Program Analysis and International Affairs, which included
input from the Kentucky Office of Homeland Security, in the final report.

The report contains five recommendations aimed at improving Kentucky’s management
of State Homeland Security Program and Urban Areas Security Initiative grants. Based
on information provided in your response to the draft report, we consider
recommendations 2 and 3 resolved and closed. Recommendations 1, 4, and 5 are
considered open and unresolved. As prescribed by the Department of Homeland
Security Directive 077-01, Follow-Up and Resolution for Office of Inspector General
Report Recommendations, within 90 days of the date of this memorandum, please
provide our office with a written response that includes your (1) agreement or
disagreement, (2) corrective action plan, and (3) target completion date for each
recommendation. Also, please include responsible parties and any other supporting
documentation necessary to inform us about the current status of the recommendations.

Once your office has fully implemented the recommendations, please submit a formal
closeout letter to us within 30 days so that we may close the recommendations. The
memorandum should be accompanied by evidence of completion of agreed-upon
corrective actions and of the disposition of any monetary amounts. Until your response
is received and evaluated, recommendations 1, 4, and 5 will remain open and unresolved.
                       OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
   Inspector General for Audits, at (202) 254-4100.

   Attachment




www.oig.dhs.gov                               2                                       OIG-13-41
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security



Table of Contents
Executive Summary ............................................................................................................ 1


Background ........................................................................................................................ 2


Results of Audit ................................................................................................................... 2


           Kentucky State Homeland Security Strategy Needs Improvement ....................... 3

           Recommendation ................................................................................................... 5

           Management Comments and OIG Analysis ........................................................... 5


           Inventory Management Needs Improvement ........................................................ 6

           Recommendations ...…………………………………………………………………………………………..7

           Management Comments and OIG Analysis .. ………………………………………………………7


           Performance Measures Have Not Been Developed .............................................. 8

           Recommendations ................................................................................................. 9

           Management Comments and OIG Analysis ..............……………………………………………9


           Best Practices ……………………………………………………………………………………………………10


Appendixes
           Appendix A:           Objectives, Scope, and Methodology ........................................... 11 

           Appendix B:           Management Comments to the Draft Report .............................. 15 

           Appendix C:           Homeland Security Grant Program............................................... 18 

           Appendix D:           Kentucky Office of Homeland Security Subgrantee Application

                                 Process .......................................................................................... 19 

           Appendix E:           Major Contributors to This Report ............................................... 20 

           Appendix F:           Report Distribution ....................................................................... 21 

                   OFFICE OF INSPECTOR GENERAL
                       Department of Homeland Security


Abbreviations
     CFR        Code of Federal Regulations
     DHS        Department of Homeland Security
     FEMA       Federal Emergency Management Agency
     FY         fiscal year
     GPD        Grant Programs Directorate
     HSGP       Homeland Security Grant Program
     KCPP       Kentucky Community Preparedness Program
     KOHS       Kentucky Office of Homeland Security
     NIMS       National Incident Management System
     OIG        Office of Inspector General
     SHSP       State Homeland Security Program
     SMART      specific, measurable, achievable, results-oriented, and time-
                limited
     UASI       Urban Areas Security Initiative
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Executive Summary
Public Law 110-53, Implementing Recommendations of the 9/11 Commission Act of
2007, requires the Department of Homeland Security (DHS) Office of Inspector General
(OIG) to audit individual States’ management of State Homeland Security Program and
Urban Areas Security Initiative grants. This report responds to the reporting
requirement for the Commonwealth of Kentucky.

The objectives of the audit were to determine whether the Commonwealth of Kentucky:
(1) spent grant funds effectively and efficiently; (2) complied with applicable Federal
laws and regulations and DHS guidelines governing the use of such funding; and
(3) enhanced the ability of State grantees to prevent, prepare for, protect against, and
respond to natural disasters, acts of terrorism, and other manmade disasters. The audit
included a review of three awards totaling approximately $32 million in State Homeland
Security Program and Urban Areas Security Initiative grant funds awarded to Kentucky
from fiscal years 2008 through 2010.

In most instances, the Kentucky Office of Homeland Security administered its grant
programs in compliance with requirements in Federal grant guidance and regulations.
Grant funds were spent on allowable items and activities, and there were adequate
controls over the approval of expenditures and reimbursement of funds. However, we
identified three areas for program improvement: the State Homeland Security Strategy,
inventory control procedures, and performance measurement of preparedness
improvements.

We made five recommendations to the Federal Emergency Management Agency
(FEMA) and the Commonwealth of Kentucky for improvements which, if implemented,
should strengthen program management, performance, and oversight. FEMA concurred
with recommendations 1, 4, and 5, and the Kentucky Office of Homeland Security
implemented recommendations 2 and 3.




www.oig.dhs.gov                            1                                   OIG-13-41
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Background
DHS provides Federal funding through the Homeland Security Grant Program (HSGP) to
help State and local agencies enhance capabilities to prevent, deter, respond to, and
recover from terrorist attacks, major disasters, and other emergencies. Appendix C
contains details of the HSGP.

The Kentucky Office of Homeland Security (KOHS) is designated as Kentucky’s State
Administrative Agency, the entity responsible for administering the HSGP. KOHS carries
out multiple missions mandated by DHS and the Kentucky General Assembly, including
administering Federal grants.

KOHS uses a competitive grant application process for State and local agencies to submit
grant project proposals. When proposals are presented, a team of peers from across
the Commonwealth reviews the grant applications in accordance with Kentucky’s State
Homeland Security Strategy and submits results to the KOHS Executive Review Panel.
After the KOHS Executive Review Panel conducts its review, the grant applications are
presented to the State Homeland Security Working Group for final award decisions. The
projects then move forward to the Governor for final approval. Appendix D contains
information on the KOHS subgrantee application process.

The Commonwealth was awarded approximately $32 million in State Homeland Security
Program (SHSP) and Urban Areas Security Initiative (UASI) grant funds over fiscal years
(FYs) 2008, 2009, and 2010. Appendix A provides details of the objectives, scope, and
methodology for this audit.

During FYs 2008 through 2010, the Louisville UASI was awarded $1.4 million,
$2.2 million, and $2.2 million, respectively. A FEMA official said that Kentucky did not
score high enough on the UASI risk formula to receive funding in FYs 2011 or 2012.

Results of Audit
In most instances, KOHS administered its grant programs in compliance with
requirements in Federal grant guidance and regulations. For example, Kentucky has
written procedures and protocols for administering its grant programs and implements
internal controls for approving and reimbursing expenditures. KOHS also conducts
mandatory grant application and compliance workshops annually for subgrantees that
apply for and receive grant funding.

However, the Kentucky State Homeland Security Strategy was last updated in 2005, and
strategic objectives have completion dates of 2005 to 2007. The outdated strategy does

www.oig.dhs.gov                             2                                    OIG-13-41
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


not consider the changing needs, capabilities, or risks at the local, regional, and State
levels, and does not include 2007 National Preparedness Guidelines and priorities.
Additionally, KOHS does not maintain an accurate and complete inventory of all
equipment purchased with grant funding, and has not established formal performance
measures to assess whether improvements were achieved as a result of receiving SHSP
and UASI funds.

       Kentucky State Homeland Security Strategy Needs Improvement

       The Kentucky State Homeland Security Strategy (strategic plan) does not align
       with priorities in the FEMA National Preparedness Guidelines, revised in 2007.
       The strategic plan was last updated in 2005; contains objectives with completion
       dates of 2005–2007; and does not include Kentucky’s changing needs,
       capabilities, or risks at the local, regional, and State levels. Furthermore,
       according to the Department of Homeland Security State and Urban Area
       Homeland Security Strategy Guidance on Aligning Strategies with the National
       Preparedness Goal, dated July 22, 2005, objectives should be—

           •	 Specific, detailed, particular, and focused – help to identify what is to be
              achieved and accomplished;
           •	 Measurable – quantifiable, provide a standard for comparison and
              identify a specific achievable result;
           •	 Achievable – not beyond the ability of a State, region, jurisdiction, or
              locality;
           •	 Results-oriented – identify a specific outcome; and
           •	 Time-limited – have a target date that identifies when the specific,
              measurable, achievable, results-oriented, and time-limited (SMART)
              objective will be achieved.

       In contrast, the UASI strategic plan has current goals and objectives and, in most
       cases, complies with FEMA grant guidelines.

       Kentucky’s strategic plan was drafted in 2005, prior to the issuance of the
       National Preparedness Guidelines of September 2007. FEMA has not required
       States to update their strategic plans since 2005. Although Kentucky’s strategic
       plan is in compliance, it is not updated to align with the revised guidelines. These
       guidelines add one national priority to the original seven in the Department of
       Homeland Security State and Urban Area Homeland Security Strategy Guidance
       on Aligning Strategies with the National Preparedness Goal. Kentucky’s strategic
       plan does not include the new priority to “Strengthen Planning and Citizen
       Preparedness Capabilities” or the revised all-hazards approach to national


www.oig.dhs.gov                             3	                                    OIG-13-41
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


       preparedness. Therefore, the strategic plan does not reflect the provisions
       required by the September 2007 National Preparedness Guidelines. Table 1 lists
       three outdated objectives from Kentucky’s 2005 strategic plan.

     Table 1. Outdated Objectives in Kentucky’s 2005 State Homeland Security Strategy
                      Objectives in Kentucky’s 2005 State Homeland Security Strategy
                             Objective                                          Completion Date
     To have all of the Kentucky first responders be National Incident          End of Calendar Year 2006
     Management System (NIMS) compliant by the end of the calendar
     year 2006.
     • By August, KOHS would like to secure a position on the National
         Level NIMS Standards Working Group to develop national
         standards for NIMS.
     • Before October 1, KOHS’s plan will ensure that Kentucky has met
         all 2006 Federal compliance requirements for NIMS.

     To mobilize local law enforcement and community officials in a             End of Calendar Year 2007
     formalized process of identifying and correcting security
     vulnerabilities that could be exploited.
     • Kentucky uses the Kentucky Community Preparedness Program
         (KCPP) to identify and correct security vulnerabilities in small and
         medium-sized communities.
     • Under the program, members of KCPP work with local law
         enforcement and elected officials to do risk assessments of
         communities.
     • To date, 63 communities have been assessed and 27 more
         communities are scheduled for assessments by June 30, 2006.
     • KOHS hopes to reach all 120 counties by the end of calendar year
         2007.
     To partner with the Commonwealth Office of Technology to improve           Hold additional awareness
     the Security Awareness of state and local “end users” to provide           seminars in 2006
     information on cyber threats and how to protect our state network
     from malicious attacks.
     • October is National Cyber Security Awareness Month.
     • Kentucky used this exposure in the fall of 2005 to hold an
          Awareness Seminar to improve security awareness for state and
          local end users and to provide information on cyber threats and
          how to protect our state network from malicious attacks.
     Source: KOHS document provided by FEMA

       KOHS does not formally evaluate the changing needs, capabilities, or risks at the
       local, regional, and State levels to assist in updating the strategic plan. KOHS
       officials believe that they meet the needs of subgrantees based on local agency
       self- assessments. KOHS cannot ensure that it is addressing the most critical
       statewide needs to prevent, deter, respond to, and recover from terrorist


www.oig.dhs.gov                                     4                                         OIG-13-41
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       attacks, major disasters, and other emergencies. KOHS officials said that they
       expected to update their strategic plan by the end of 2012. An interview with
       FEMA in February 2013 indicated that KOHS is in the process of updating its
       strategic plan, and expects to submit it to FEMA for review no later than 6
       months after OIG issues the final report.

       Recommendation

       We recommend that the FEMA Assistant Administrator, Grant Programs
       Directorate:

       Recommendation #1:

       Issue guidance to Homeland Security Grant Program recipients to update
       strategic plans periodically and to include SMART goals that align with current
       National Preparedness Guidelines.

       Management Comments and OIG Analysis

       Management Comments: FEMA concurred with the intent of recommendation
       1. According to FEMA, its actions satisfy the recommendation’s intent. The
       National Preparedness Directorate, the FEMA entity responsible for the
       homeland security strategy and its guidance, plans to release updated guidance
       on strategic planning by January 2013. FEMA’s Grant Programs Directorate
       (GPD) will require the KOHS Executive Director to revise Kentucky’s State
       Homeland Security Strategy to comply with the revised guidelines developed by
       the National Preparedness Directorate.

       Subsequent to its earlier response, we met with FEMA officials and they
       provided an update to recommendation #1. FEMA’s GPD officials stated that
       KOHS is in the process of updating its current Homeland Security strategy. GPD
       representatives also stated that NPD has not released updated guidance on
       strategic planning, and expects NPD to issue the updated guidance during the
       summer of 2013. FEMA will provide a corrective action plan to address the
       recommendation after the publication of the final report.

       OIG Analysis: FEMA’s proposed actions are responsive to the recommendation.
       However, the recommendation will remain open and unresolved until final
       implementation of the proposed corrective actions.




www.oig.dhs.gov                            5                                    OIG-13-41
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       Inventory Management Needs Improvement


       KOHS does not comply with Federal requirements for maintaining inventory
       records or performing required biennial physical inventories. KOHS’ grant
       guidance includes Federal inventory requirements. However, according to KOHS,
       it has not had the personnel resources to fully implement and enforce the policy.
       Rather, it relies on its subgrantees to maintain inventory records and conducts
       its independent verification at the grant project closeout. As a result, KOHS does
       not have reasonable assurance that inventory is effectively managed. Code of
       Federal Regulations (CFR) Title 44 §13.32(d), Management requirements, sets
       forth procedures for managing equipment (including equipment replacement),
       whether acquired in whole or in part with grant funds, until disposition takes
       place. According to the CFR, grant recipients will, at a minimum, meet the
       following requirements:

           •	 Property records must be maintained that include a description of the
              property; a serial number or other identification number; the source of
              property; who holds title; the acquisition date; cost of the property;
              percentage of Federal participation in the cost of the property; the
              location, use, and condition of the property; and any ultimate disposition
              data, including the date of disposal and sale price of the property. 44 CFR
              §13.32(d)(1).

           •	 A physical inventory of the property must be taken and the results
              reconciled with the property records at least once every 2 years. 44 CFR
              §13.32(d)(2).

           •	 A control system must be developed to ensure adequate safeguards to
              prevent loss, damage, or theft of the property. Any loss, damage, or
              theft shall be investigated. 44 CFR §13.32(d)(3).

       KOHS performs a physical inventory of equipment for each project during the
       grant closeout process. Subgrantees develop and maintain inventory records,
       but 17 of the 20 records we reviewed did not fully comply with the statutory
       property management requirement of 44 CFR §13.32(d).

       Once the closeout process is complete, KOHS conducts no additional inventories
       to meet the biennial inventory requirement. Without the required physical
       control and accountability over items purchased with SHSP and UASI funds,
       KOHS does not have reasonable assurance that the property procured with grant
       funding is used for authorized purposes and adequately safeguarded to prevent
       loss, damage, or theft.
www.oig.dhs.gov                             6	                                  OIG-13-41
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       After OIG fieldwork was completed, KOHS revised its inventory policies and
       procedures to establish stronger inventory controls to meet Federal
       requirements. To fulfill grant requirements, it conducted appropriate inventory
       management procedures to bring the Commonwealth into compliance.

       Recommendations

       We recommend that the FEMA Assistant Administrator, Grant Programs
       Directorate, require the Executive Director, Kentucky Office of Homeland
       Security, to:

       Recommendation #2:

       Develop and implement procedures to ensure that inventory records comply
       with 44 CFR §13.3 and §13.32 (d), including biennial inventory reviews of
       equipment purchased with SHSP and UASI funds.

       Management Comments and OIG Analysis

       Management Comments: FEMA did not concur with recommendation 2. FEMA
       stated that KOHS developed and implemented procedures to ensure that
       inventory records comply with 44 CFR §13.3 and §13.32 (d). A copy of these
       procedures was provided to OIG on July 19, 2012.

       OIG Analysis: Although FEMA did not concur with the recommendation, KOHS
       took actions that satisfy the intent of the recommendations. We reviewed KOHS
       inventory procedures and actions taken to meet the recommendation. The
       recommendation is now resolved and closed.

       Recommendation #3:

       Compile and provide the Office of Inspector General with reconciled fiscal year
       2008 through 2010 SHSP and UASI inventory records that meet Federal
       requirements.

       Management Comments: FEMA did not concur with recommendation 3.
       According to FEMA, at the end of the project, KOHS submitted copies of
       reconciled records of SHSP and UASI inventory for FYs 2008 through 2010 to OIG.

       OIG Analysis: Although FEMA did not concur with the recommendation, KOHS
       took actions that satisfy the intent of the recommendations. We reviewed KOHS


www.oig.dhs.gov                            7                                   OIG-13-41
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       inventory records and actions taken to meet the recommendation and Federal
       requirements. The recommendation is now resolved and closed.

       Performance Measures Have Not Been Developed

       KOHS could not demonstrate specific improvements and measurable
       accomplishments of SHSP and UASI-funded projects for FYs 2008 through 2010.
       It does not have a basis for measuring improvements in its preparedness and
       response capabilities. KOHS does not have measurable goals and objectives
       consistent with Federal requirements in its strategic plan. KOHS officials said
       that they use State Preparedness Reports as a tool to measure capabilities-based
       improvements achieved with grant funds.

       According to 44 CFR §13.40, Monitoring and reporting program performance,
       grantees must monitor grant and subgrant-supported activities to ensure that
       performance goals are achieved. In addition, according to Department of
       Homeland Security State and Urban Area Homeland Security Strategy Guidance
       on Aligning Strategies with the National Preparedness Goal, July 2005, an
       objective “sets a tangible and measurable target level of performance over time
       against which actual achievement can be compared, including a goal expressed
       as a quantitative standard, value, or rate.” Therefore, an objective should be
       SMART.

       KOHS officials said that they did not assess grant performance and improvements
       in preparedness using a performance reporting program. Rather, they consider
       the State Preparedness Reports to be an acceptable measurement of
       improvements in preparedness.

       Our review of Kentucky’s State Preparedness Reports for FYs 2008 through 2010
       showed that they estimate preparedness as a percentage based on the type of
       activity, such as planning or communications, but use inconsistent data from
       year to year. The reports answer basic questions on limitations and the level of
       improvement based on total Federal funding, but do not contain SMART
       performance measurements. Therefore, the State Preparedness Reports do not
       measure the extent of Kentucky’s performance improvements in preparedness
       as a result of the Commonwealth receiving HSGP funds.

       KOHS cannot evaluate its preparedness levels and response capabilities or
       effectively determine progress toward its goals and objectives. Instead of using
       a current strategic plan with performance measurements, KOHS officials said
       that they use a risk-based approach for making funding decisions.


www.oig.dhs.gov                            8                                   OIG-13-41
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       Recommendations

       We recommend that the FEMA Assistant Administrator, Grant Programs
       Directorate:

       Recommendation #4:

       Provide performance measurement guidance to Homeland Security Grant
       Program recipients and direct the Kentucky Office of Homeland Security to
       develop a comprehensive performance measurement system to capture the
       program’s overall performance and progress toward enhancing preparedness as
       a result of the SHSP and UASI grant programs.

       Recommendation #5:

       Direct the Kentucky Office of Homeland Security to implement and manage
       specific milestones for achieving progress toward target capability assessment
       goals at the State, local, and regional levels.

       Management Comments and OIG Analysis

       Management Comments: FEMA concurs with the intent of recommendations 4
       and 5. According to FEMA, its National Preparedness Directorate is currently
       developing processes to measure core capabilities in accordance with the
       National Preparedness Goal, pursuant to Presidential Policy Directive-8. KOHS
       will complete the Threat and Hazard Identification and Risk Assessment and
       submit it to FEMA by December 31, 2012. This assessment will be used to create
       a baseline and targets for FY 2013 and beyond. FEMA has also redesigned the
       State Preparedness Report that will help States demonstrate and track
       preparedness improvement over time.

       Subsequent to its original response, representatives at FEMA stated that KOHS
       completed and submitted the Threat and Hazard Identification and Risk
       Assessment as part of its Annual State Preparedness Report to FEMA on
       December 21, 2012.

       OIG Analysis: The actions proposed and confirmed by FEMA are responsive to
       the recommendations. However, the recommendations will remain open and
       unresolved until documentation that final implementation of the proposed
       corrective actions occurred is provided.



www.oig.dhs.gov                            9                                  OIG-13-41
                          OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       Best Practices 


       KOHS hosts two mandatory grant workshops at various locations throughout
       Kentucky: a grant application workshop for agencies interested in submitting
       projects for funding, and a grant compliance workshop for agencies awarded
       grant funding. These workshops include a review of Federal and State grant
       requirements, grant responsibilities if awarded, grant application and writing
       tips, and other available resources. The workshops are held periodically and
       provide local agencies the opportunity to receive required training while
       minimizing travel expenses.

       The grant application workshops review FEMA’s focus and grant requirements
       for the specific grant year, including annual DHS grant guidance and toolkit
       information. Also included is KOHS’ focus on funding, and how to successfully
       complete the application to ensure that all required information is submitted.
       KOHS’ follow-on question-and-answer sessions provide immediate information
       to local agencies, so they leave the workshops better prepared to complete and
       submit their project applications.

       The grant compliance workshops are held for all subgrantees receiving grant
       funding and cover grant management and administration requirements.
       Additional information is provided to the subgrantees about grant areas such as
       procurement, reimbursements, inventory, reporting, and monitoring. The
       responsibilities of the grant are discussed, and a question-and-answer session at
       the end provides subgrantees the opportunity to ask questions before their
       grant begins. To further assist subgrantees with record keeping and maintaining
       required documentation, KOHS provides a file folder identical to the one used by
       KOHS grant managers. The folder includes sections for the legal agreement;
       original application; single audit; budget documents including written
       procurement codes, reimbursements, reports, and correspondence; and State
       and Federal grant requirements for incorporating the NIMS.




www.oig.dhs.gov                            10                                  OIG-13-41
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Appendix A
Objectives, Scope, and Methodology
The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

The objective of the audit was to determine whether the Commonwealth of Kentucky
distributed and spent SHSP and UASI grant funds effectively and efficiently and in
compliance with laws, regulations, and guidance. In addition, we determined the extent
to which the Commonwealth measures improvements in its ability to prevent, prepare
for, protect against, and respond to natural disasters, acts of terrorism, and other
manmade disasters.

HSGP and its five interrelated grant programs fund a range of preparedness activities,
including planning, organization, equipment purchase, training, exercises, and
management and administration costs. However, only SHSP and UASI funding,
equipment, and programs supported by the grant funding were reviewed for compliance.
Table 2 describes the scope of the audit. Additional information on these grant
programs is in appendix C.

       Table 2. Kentucky Homeland Security Grant Program Awards
                      Kentucky Homeland Security Grant Program Awards
                                  FYs 2008 through 2010
           Program            FY 2008       FY 2009       FY 2010          Total

     State Homeland
                             $9,590,000   $8,593,500     $8,007,374     $26,190,874
     Security Program

     Urban Areas
                             $1,421,500   $2,201,800     $2,205,723     $5,829,023
     Security Initiative

           Subtotal         $11,011,500   $10,795,300    $10,213,097 $32,019,897
       Source: FEMA

The audit methodology included interviews with FEMA representatives as well as
fieldwork at KOHS, the Area Development Districts, and various subgrantee locations. To
achieve our audit objective, we analyzed data, reviewed documentation, and


www.oig.dhs.gov                             11                                     OIG-13-41
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


interviewed key local officials directly involved in the management and administration
of the Kentucky Homeland Security Grant Program. We conducted site visits and held
discussions with appropriate officials from KOHS, Area Development Districts, and local
jurisdictions to determine whether program grant funds were expended in accordance
with grant requirements and Kentucky’s established priorities. As of March 13, 2012,
KOHS reported that it had expended $23,561,293. In addition to KOHS, we met with
officials from the following organizations:

Urban Areas Security Initiative
   • Louisville UASI

Area Development Districts
   • Bluegrass Area Development District
      o Boyle County Emergency Management Services
      o Boyle County Fire Department
      o Boyle County Sheriff’s Office
      o Burgin Fire Department
      o Clark County Fire Department
      o Clark County Sheriff’s Office
      o Danville Police Department
      o Lancaster Fire Department
      o Lancaster Police Department
      o Mercer County Fire Department
      o Versailles Fire Department
      o Winchester Fire Department
      o Winchester Sheriff’s Office

   •   Buffalo Trace Area Development District
       o Fleming County Sheriff’s Office
       o Flemingsburg Police Department
       o Garrison Volunteer Fire Department
       o Kinniconick Volunteer Fire Department
       o Sardis Volunteer Fire Department
       o Tilton Volunteer Fire Department
       o Vanceburg Police Department
       o Washington/Maysville Volunteer Fire Department

Local Jurisdictions and First Responders
   • Lexington Fayette Urban County Government
        o Lexington Fire Department
        o Lexington Police Department


www.oig.dhs.gov                           12                                   OIG-13-41
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


   •   Carter County
       o Carter County Emergency Management Services

   •   Lawrence County
       o Cherryville Fire Department
       o Lowmansville Fire Department

   •   Greenup County
       o Greenup County 911 Center

   •   Graves County
       o Mayfield Fire Department
       o Graves County Sheriff’s Office

   •   Marshall County
       o Marshall County Emergency Management Services
       o Marshall County Sheriff’s Office
       o Mayfield/Graves County Ambulance Service
       o Mercy Regional Ambulance Service
       o Murray-Calloway County Ambulance Service

   •   McCracken County
       o McCracken County Attorney
       o McCracken County Sheriff’s Office

   •   Boyd County Sheriff’s Office

   •   Boyd County Public Safety

   •   Jeffersontown
       o Jeffersontown Police Department

   •   Flatwoods City
       o Flatwoods Police Department

   •   Benton City
       o Benton City Fire Department

   •   City of Mayfield
       o Mayfield Police Department



www.oig.dhs.gov                           13                  OIG-13-41
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


   •   Paducah City
       o Paducah City Fire Department
       o Paducah City Police Department

   •   Jefferson County
       o Jefferson County Sheriff’s Office

   •   Harvey-Brewers Fire Department

   •   Possum Trot Fire Department

We interviewed responsible officials, reviewed documentation supporting KOHS and
subgrantee management of the awarded grant funds (including expenditures for
equipment, training and exercises, and management and administration), and physically
inspected equipment procured with the grant funds.

The team reviewed a judgmental sample of the grants expenditures representing
approximately 31.8 percent of the SHSP dollar value and 100 percent of the UASI dollar
value expended for FYs 2008 through 2010 grants to determine whether the expenditures
were supported and allowable under the terms of the grants. The team judgmentally
chose specific equipment items to observe at the local sites where it resides.

We conducted this performance audit between April and June 2012 pursuant to the
Inspector General Act of 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objectives.




www.oig.dhs.gov                           14                                 OIG-13-41
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


Appendix B
Management Comments to the Draft Report

                                                                        Ii.S. DepanmCnI of lIome lllntl Security
                                                                                    Washin g:o!1. DC 20472




                               OCT 2 4 1012




          MEMORANDUM rOR:              Anne L. Richards
                                       A ssistant Inspector General for Audits
                                       Office of Inspector General

         rROM:                    <f1'- David J. Kaufman vl(ccl~ ~
                                 t     Associate Adm ini strator
                                       Policy, Program An(llysis and Int emational A fr.'lir~

          SUBJECT:                     Response to 010 Draft Report, The Commonweaflh of KenlucJ.:y '.\'
                                       lvJal1agement o/Slme Homeland Security j}rogram and Urban Areas
                                       Security Initiative Grams Awarded During Fiscal Years 1008 through
                                       20 10


         Thank you for the opportunity to comment on the draft repon. The findin gs in the report will be used
         to strengthen the effectiveness and efficien cy of how we execute and measure our programs. We
         recognize the need to continue to impro ve the process. including addressing the recommendations
         raised in this repon. Our responses to the reco mmendations arc as follows:

          Recommendation #1 ' We recommend tha t tile FEMA Assistant Administrator, Grant Programs
          nirectorate issue guidance to Homeland Security Grant Program recipients to update strategic plans
          periodically and to include specifi c, measurable, achievable, results-oriented , and tim e-limited
          (S.\I1ARI') goals that align with current National Preparedness Guidelines.

          FEMA Response: FEMA concurs with the intent of this recommendation. lbe National
          Preparedness Directorate (NPD), the Federal Emergency Management A gency (FEMA) entity
          responsible fo r the homeland security strategy (HSS) and its guidance, plans to release updated
          guidance on strategic planning by January 2013 . FEMA' s Grant Programs Directorate (O PD) will
          require the Kentucky Office of Homeland Security Director to revise Kentucky'S HSS to comply
          with revised guidelines developed by N PD.

          FEMA bel ieves this satisfies the intent of the recommendation and requests that this
          recommcndat ion be resolved and open pending revi sion of Kentueky 's Ho meland Security Strategy.

          Recommendation #2; We recommend that the FEMA Assistant Administrato r, Grant Programs




www.oig.dhs.gov                                           15                                                       OIG-13-41
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




          Directorate. require the Executive Director, Kentucky Office of Homeland Security, to develop and
          implement procedures to ensure that inventory records comply with 44 CFR §13.3 and §13.32 (d),
          including biennial inventory reviews of equipment purchased with SHSP and UASI funds.

          FEMA Response: FEMA does not concur with Recommendation #2. The Kentucky Office of
          Homeland Security developed and implemented procedures to ensure inventory records comply with
          44 CPR §13.3 and §13.32 (d). A copy of these procedures is provided with this resIXlnse
          (Attachment I) and was provided to the Office oflnspector General (OIG) on July 19.2012.

          FEMA believes this satisfies the intent of the recommendation and requests that this
          recommendation be resoJved and closed.

          Recommendation #3: We recommend that the FEMA Assistant Administrator, Grant Programs
          Directorate, require the Executive Director. Kentucky Office of Homeland Security. to compile and
          provide the Office ofInspector General with reconciled fiscal year 2008 through 2010 SHSP and
          VASI inventory records to meet Federal requirements.

          FEMA Response: FEMA does not concur with Recommendation #3. The Kentucky Office of
          Homeland Security complied and provided the Office of Inspector General (OIG) with reconciled
          fiscal year 2008 through 2010 SHSP and UASI inventory records to meet Federal requirements on
          July 25, 2012 forFYs 2008 and 2009 and on August 17. 2012 for FY 2010. A copy ofreconciled
          records is provided with this response as Attachments 2-6.

          FEMA believes this satisfies the intent of the recommendation and requests that this
          recommendation be resolved and closed,

          Recommendation #4: We recommend that the FEMA Assistant Administrator. Grant Programs
          Directorate provide perfonnance measurement guidance to Homeland Security Grant Program
          recipients and direct the Kentucky Office of Homeland Security to develop a comprehensive
          perfonnance measurement system to caprure the program's overall performance and progress toward
          enhancing preparedness as a result of the SHSP and UASI grant programs.

          Recommendation #5: We recommend that the FEMA Assistant Administrator, Grant Programs
          Directorate direct the Kentucky Office of Homeland Security to implement and manage specific
          milestones for achieving progress toward target capability assessment goals at the State. local,·and
          regional levels.

          FEMA Response for Recommendations #4 and #5: FEMA concurs with the intent of
          Recommendations #4 and #5. The FEMA NPD is currently developing processes to measure core
          capabilities in accordance with the National Preparedness Goal pursuant to PPD-8. The Kentucky
          Office of Homeland Security will complete the Threat and Hazard Identification and Risk
          Assessment (THIRA) and submit it to FEMA by December 31. 2012. The THIRA will be used to
          create a baseline and targets for Fiscal Year 2013 and beyond. FEMA bas also redesigued the State
          Preparedness Report that will help states demonstrate and traek preparedness improvement over
          time.

          FEMA requests that recommendations 4 and 5 be considered resolved and open pending completion
          of the stated corrective action.




www.oig.dhs.gov                                          16                                                      OIG-13-41
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security




          Again. we thank you for the opportunity to provide comments concerning this report. Please contact
          Gina Norton, Audit Liaison at 202-646-4287 regarding further questions or concerns.


          6 Attachments (documentation to support FEMA's non-concurrence of Recommendations 2 and 3):
             Attachment 1 - Kentucky Office of Homeland Security (KOHS) Grants and Finance Policies and
             Procedures Manual
             Attachment 2 - SOW for an Online Inventory Management System
             Attachment 3 - Subrecipient Inventory Form
             Attachment 4 - KOHS Subrecipient Inventory for 2008 SHSP
             Attachment 5 - KOHS Subrecipient Inventory for 2009 SHSP
             Attachment 6 - KOHS Subrecipient Inventory for 2010 SHSP




www.oig.dhs.gov                                        17                                                 OIG-13-41
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix C
Homeland Security Grant Program
According to the FY 2010 Homeland Security Grant Program Guidance and Application
Kit and FY 2010 Preparedness Grant Programs Overview, HSGP provides Federal funding
to help State and local agencies enhance their capabilities to prevent, deter, respond to,
and recover from terrorist attacks, major disasters, and other emergencies. The program
encompasses several interrelated Federal grant programs that together fund a range of
preparedness activities, including planning, organization, equipment purchase, training,
and exercises, as well as management and administration costs. Programs include—

State Homeland Security Program provides financial assistance directly to each of the
States and U.S. Territories to prevent, respond to, and recover from acts of terrorism
and other catastrophic events. The program supports the implementation of the State
Homeland Security Strategy to address the identified planning, equipment, training, and
exercise needs.

Urban Areas Security Initiative provides financial assistance to address the unique
planning, equipment, training, and exercise needs of high-risk urban areas, and to assist
in building an enhanced and sustainable capacity to prevent, respond to, and recover
from threats or acts of terrorism and other disasters.

In addition, HSGP includes other interrelated grant programs with similar purposes.
Depending on the fiscal year, these include—

•   Metropolitan Medical Response System Program
•   Citizen Corps Program
•   Operation Stonegarden




www.oig.dhs.gov                             18                                   OIG-13-41
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix D
Kentucky Office of Homeland Security Subgrantee Application
Process
According to the KOHS’ Grants and Finance Policy and Procedures, KOHS issues a news
release announcing grant funds availability and how to apply, including updated DHS
guidance. KOHS provides statewide regional grant application workshops for all grant
applicants and individual technical assistance upon request. These workshops include a
review of Federal and State grant requirements, grant responsibilities if awarded, grant
application and writing tips, and other resources available.

Applications are received at KOHS and organized according to Kentucky initiatives,
including, but not limited to mobile data terminals, radios, towers/repeaters, 911
centers, and equipment. The technical review teams consist of independent subject
matter experts ranging from fire to emergency management services and law
enforcement to public health reviewers. All reviewers receive training for consistent
application scoring. Each reviewer scores the project, and the review teams discuss the
scores. The final scores are provided to KOHS and entered into the grants database.

KOHS executive staff performs a functional review, which includes consideration of
other available grant resources and provides preliminary funding proposals based on
the reviewers’ scores, statewide needs, and the KOHS Strategic Plan. Executive staff
coordinates with the Justice Cabinet, Emergency Management, and Public Health for
other available grants and grant awards.

The Executive Director reviews the recommendations and makes changes based on
special needs and risk. The projects then move forward to the Governor for final
approval.




www.oig.dhs.gov                            19                                  OIG-13-41
                       OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


Appendix E
Major Contributors to This Report
Alexander Best, Director
Cecilia Carroll, Audit Manager
Michael Staver, Auditor-in-Charge
John Kohler, Program Analyst
Erica Stern, Program Analyst
James Diaz, Program Analyst
Kevin Dolloson, Communications Analyst
Katrina Bynes, Referencer




www.oig.dhs.gov                          20                  OIG-13-41
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Appendix F
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
Acting Chief Privacy Officer
FEMA Audit Liaison

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress
Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                               21                        OIG-13-41
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
